   March 11, 2002




Information Technology

Effectiveness of the Joint Total Asset
Visibility Program
(D-2002-057)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CINC                Commander in Chief
DLA                 Defense Logistics Agency
DUSD(L&MR)          Deputy Under Secretary of Defense (Logistics and Materiel
                       Readiness)
GCSS                Global Combat Support System
JTAV                Joint Total Asset Visibility
JULLS               Joint Universal Lessons Learned System
                              Office of the Inspector General, DoD
Report No. D-2002-057                                                                    March 11, 2002
      (Project No. D2001LD-0078.001)

              Effectiveness of the Joint Total Asset Visibility Program

                                         Executive Summary

Introduction. This report is the second of two audit reports addressing total asset
visibility. This report discusses the effectiveness of the Joint Total Asset Visibility
Program. The first report discusses the effectiveness of the DoD Total Asset Visibility
Program goal as it relates to the Government Performance and Results Act.

The Joint Total Asset Visibility Program is an automated information system that was
designed to provide users with timely and accurate logistics information on the location,
movement, status, and identity of Military units, personnel, equipment, and supplies.
The Joint Total Asset Visibility Program does not process and create data; it extracts
common logistics data from DoD Component information systems and formats the
extractions in standard reports for review and additional processing. The Joint Total
Asset Visibility Program was developed to provide unified and joint task force
commanders with asset visibility for Military units within their commands. Users
access common databases managed by DoD Components that provide them with
opportunities to reassign or redirect theater assets. Depending on data criticality,
information stored in the databases are periodically updated through system interfaces.

The Joint Total Asset Visibility Program is in the system sustainment phase of the
system development life cycle, and $43.8 million was programmed to sustain the
system through FY 2005.

Objective. The overall audit objective was to evaluate the effectiveness of the Joint Total
Asset Visibility Program. Specifically, the audit evaluated whether the Joint Total Asset
Visibility Program was meeting asset visibility requirements of the unified commands.
Our review of the applicable management control program is reported in Inspector
General, DoD, Report No. D-2002-016, “Government Performance and Results Act
Performance Measure for DoD Total Asset Visibility,” November 21, 2001.

Results. The Joint Total Asset Visibility Program was not fully developed and funded
to provide commanders in chief and joint task force commanders with the total asset
visibility required. As a result, commanders in chief and joint task force commanders
did not have access through the program to all required data on the location, movement,
status, and identity of Military units, personnel, equipment, and supplies. Links to 77 of
130 data sources currently provided by the Joint Total Asset Visibility Program as well
as undeveloped links to the other 53 data sources required by commanders in chief and
joint task force commanders are to be integrated into the Global Combat Support System
family of systems.∗ See the Finding section for details on the audit results.

∗
    Family of systems is a concept for the development of future automated information systems. The
    concept is to provide users access to interrelated data from a family of systems through a single
    application. Family of systems is in contrast to stand-alone systems that must be individually accessed
    in order to obtain information.
Recommendation. We recommend that the Deputy Under Secretary of Defense
(Logistics and Materiel Readiness) ensure that the Joint Total Asset Visibility Program
is funded until sufficient operational capabilities of the Global Combat Support System
have been fielded and can provide capabilities that are at least equivalent to the existing
Joint Total Asset Visibility Program.

Management Comments. The Deputy Under Secretary of Defense (Logistics and
Materiel Readiness) concurred and stated that his office would monitor the Defense
Logistics Agency’s budget to ensure continued funding. A summary of management
comments is in the Finding section of the report, and the complete text is in the
Management Comments section.




                                             ii
Table of Contents

Executive Summary                                                            i


Introduction
     Background                                                              1
     Objective                                                               2

Finding
     Joint Total Asset Visibility Program Sustainment Funding                3

Appendixes
     A. Audit Process
           Scope and Methodology                                             9
           Management Control Program Review                                10
     B. Prior Coverage                                                      11
     C. Definitions and Terms                                               12
     D. Asset Visibility Lessons Learned                                    15
     E. Targeted Joint Total Asset Visibility Data Links                    18
     F. Report Distribution                                                 23

Management Comments
     Deputy Under Secretary of Defense (Logistics and Materiel Readiness)   25
Background
           This report is the second of two audit reports addressing total asset visibility.
           This report discusses the effectiveness of the Joint Total Asset Visibility (JTAV)
           Program. The first report discusses the effectiveness of the DoD Total Asset
           Visibility Program as it relates to the Government Performance and Results Act
           Performance Measure 2.3.5, “Visibility and Accessibility of DoD Materiel
           Assets.” See Appendix C for a discussion of definitions and terminology used
           in this report.

           Joint Total Asset Visibility. The JTAV Program is an automated information
           system that was designed with the intention of providing users with timely and
           accurate logistics information on the location, movement, status, and identity of
           Military units, personnel, equipment, and supplies. The JTAV Program does
           not process and create data; it extracts common logistics data from DoD
           Component information systems and formats the extractions in standard reports
           for review and additional processing. The JTAV Program was developed to
           provide unified and joint task force commanders with asset visibility for Military
           units within their commands. Users access common databases managed by DoD
           Components that provide them with opportunities to reassign or redirect theater
           assets. Depending on data criticality, information stored in the databases is
           periodically updated through system interfaces.

           Joint Total Asset Visibility Requirements. The Deputy Under Secretary of
           Defense (Logistics and Materiel Readiness) (DUSD[L&MR]) (previously the
           Deputy Under Secretary of Defense [Logistics]) initiated the JTAV Program as
           a management planning tool to provide unified commanders with asset visibility
           for Military units within their commands. The program was developed as a
           result of the poor control and visibility of assets in-theater during Operations
           Desert Shield and Desert Storm. In June 1998, the executive agency for the
           program was transferred from the Army, which served as executive agent since
           April 1995, to the Defense Logistics Agency (DLA).

           The required JTAV functions were outlined in the Defense Total Asset Visibility
           Implementation Plan (Implementation Plan) published in 1995 by the Under
           Secretary of Defense for Acquisition, Technology, and Logistics. In
           January 1996, the JTAV Program was designated an Acquisition Category IAM1
           major automated information system, and in December 2000, the JTAV
           Operational Requirements Document was developed and approved. The
           Operational Requirements Document documented the existing JTAV capabilities
           (completed data links that make up the In-Theater JTAV) as well as the required
           capabilities that had not been developed and fielded. In addition, the
           Operational Requirements Document provided performance parameters to
           satisfy DoD system acquisition regulations; General Accounting Office and
           Inspector General, DoD, concerns; and DUSD(L&MR) direction. JTAV is in
           the system sustainment phase of the system development life cycle. System
           sustainment means that DUSD(L&MR) authorized the JTAV Program Office to

1
    Acquisition category IAM is the designation for an automated information system that receives the
    highest level of acquisition oversight.


                                                      1
            continue operating the program at its FY 2000 level of development.
            Additionally, DUSD(L&MR) budgeted $43.8 million to sustain links to the
            existing 77 of 130 targeted data sources through FY 2005. The 77 data links
            are expected to be replaced by the Global Combat Support System (GCSS)
            family of systems2 in FY 2005.

            Global Combat Support System. The GCSS family of systems evolved from
            the operational concept of “Focused Logistics,”3 as defined in the Joint
            Vision 2010 warfighting strategy.4 GCSS is an initiative for enhancing combat
            support effectiveness through system and data interoperability that will allow
            users worldwide access to shared data and applications regardless of their
            location. The initiative is sponsored by the Directorate for Logistics (J-4), Joint
            Staff. GCSS will provide DoD Components with a consolidated data source to
            manage and monitor Military units, personnel, and equipment from mobilization
            through deployment, employment, operational sustainment, redeployment, and
            demobilization. The primary objective of GCSS, as stated in the Joint Chiefs of
            Staff GCSS Strategic Plan Version 2.1, July 15, 2000, “is to provide the joint
            warfighter (and other authorized users to include Service component
            commanders, staff and supporting agencies) with a fused and integrated real-time
            picture of the battlespace across the spectrum of logistics functions enabling
            timely and informed decisions.” The GCSS family of systems concept will
            expand the availability of information to the commander, providing access to all
            data and applications necessary to do the job from any standardized computer
            workstation.


Objective
            The overall audit objective was to evaluate the effectiveness of the JTAV
            Program. Specifically, the audit evaluated whether JTAV was meeting asset
            visibility requirements of the unified commands. Our review of the applicable
            management control program is reported in Inspector General, DoD, Report
            No. D-2002-016, “Government Performance and Results Act Performance
            Measure for DoD Total Asset Visibility,” November 21, 2001. See Appendix A
            for a discussion of the audit scope and methodology and a summary of our review
            of the management control program. See Appendix B for prior coverage.




2
    Family of systems is a concept for the development of future automated information systems. The
    concept is to provide users access to interrelated data from a family of systems through a single
    application. Family of systems is in contrast to stand-alone systems that must be individually accessed
    in order to obtain information.
3
    Focused Logistics is a concept that depends on the shared data capabilities of GCSS to integrate DoD
    functional capabilities of maintenance, design and engineering, materiel management, finance,
    transportation, acquisition, and personnel management into a global logistics support system.
4
    Joint Vision 2010 is the joint warfighting strategy for the early 21st century and provides common
     direction to the Military Departments. Focused Logistics is one of the key elements of Joint
     Vision 2010. The Chairman of the Joint Chiefs of Staff subsequently revised and reissued Joint
     Vision 2010 as Joint Vision 2020.

                                                       2
                     Joint Total Asset Visibility Program
                     Sustainment Funding
                     The JTAV Program was not fully developed and funded to provide
                     commanders in chief (CINCs) and joint task force commanders with the
                     total asset visibility required. That occurred because the required
                     capabilities for the program to function at full operational capability were
                     not developed before the program was placed into system sustainment.
                     As a result, CINCs and joint task force commanders did not have access
                     through the program to all required data on the location, movement,
                     status, and identity of Military units, personnel, equipment, and supplies.
                     Links to 77 of 130 data sources currently provided by JTAV as well as
                     the undeveloped links to another 53 data sources required by CINCs and
                     joint task force commanders are to be integrated into the GCSS family of
                     systems.


Evolution of the Total Asset Visibility Concept
            Visibility of assets has been a concern of the Services for many years. The
            January 1993 version of DoD Regulation 4140.1-R,5 “DoD Materiel
            Management Regulation,” defined total asset visibility as “the capability for
            both operational and logistics managers to obtain and act on information on the
            location, quantity, condition, movement, and status of assets throughout the
            DoD logistics system. TAV [total asset visibility] includes all levels, and all
            secondary items, both consumable and reparable.” Lessons learned from
            Operations Desert Shield and Desert Storm focused attention on the seriousness
            of the problem of inadequate asset visibility. During Operations Desert Shield
            and Desert Storm, the responsiveness of the logistics system was degraded by
            thousands of duplicate orders being placed for materiel because operational units
            had inadequate visibility over the status of their requisitions, particularly for
            critical items. Moreover, an enormous amount of materiel was shipped to the
            theater but was not readily available to U.S. forces because of poor control and
            visibility of the assets.

            Defense Total Asset Visibility Implementation Plan. Responding to those
            problems, the Under Secretary of Defense for Acquisition, Technology, and
            Logistics published the Implementation Plan in November 1995, which outlined
            the concepts, requirements, and milestones to provide a total asset visibility
            capability for DoD. The Implementation Plan addressed total asset visibility
            requirements in four areas: requisition tracking, visibility of assets in-storage or
            in-process, visibility of assets in-transit, and logistics management within a
            theater of operations. The Implementation Plan designated JTAV as the
            program to meet in-theater asset visibility requirements using an advanced
            concept technology demonstration approach. The advanced concept technology
            demonstration approach was used to apply maturing technologies to address

5
    Revised May 1998 to include a more detailed explanation of total asset visibility objectives.


                                                        3
            specific total asset visibility concerns, demonstrate the capabilities of the new
            technologies, and test the solutions to the deficiencies. Further, the
            Implementation Plan acknowledged that JTAV operational concepts would
            continue to evolve in response to reviews by the unified CINCs, the Services,
            and the Joint Staff and in response to lessons learned from using the system.
            See Appendix D for examples of lessons learned from joint force exercises that
            used JTAV.

            Rapid Prototype of JTAV. JTAV was intended to integrate information from
            dispersed DoD Component automated logistics, medical, and personnel systems
            into regional repositories that could provide improved asset visibility to
            deployed forces within each CINC. The rapid prototype development of JTAV
            focused on linking CINC-associated Service databases to a logistics repository
            within each CINC and on developing preformatted and ad hoc query
            capabilities. That prototype was In-Theater JTAV. The JTAV Program Office
            had planned to eventually integrate all logistics automated information systems
            that theater CINCs could reasonably expect to use into one global JTAV
            logistics repository.

                     In-Theater JTAV. The In-Theater JTAV Program began in April 1995
            as an advanced concept technology demonstration initiative. In-theater
            capabilities were designed to provide a CINC with asset visibility for Military
            units within the command. JTAV6 allows authorized CINC users7 to access
            shared Service databases within the unified command and provides CINC users
            with opportunities to reassign or redirect theater assets. Depending on data
            criticality, information stored in the databases is periodically updated through
            system interfaces. In-Theater JTAV was fielded to all theater CINCs beginning
            in February 1996 and ending in October 1998. Although In-Theater JTAV has
            been fielded to all CINCs, it does not provide the full capability because not all
            of the required data links between JTAV and existing automated data sources
            were developed. (See Appendix E for a list of data sources.)

                    Global JTAV. The global JTAV Program was not approved or funded
            for development. The JTAV Program Office had planned to develop the global
            JTAV as a way for the JTAV Program to achieve full operational capability.
            The global JTAV would have provided worldwide logistics visibility to
            authorized CINC users. Global JTAV was to have tracked in-storage,
            in-process, and in-transit assets. The global JTAV Program was not approved or
            funded for development because the GCSS Program was also developing global
            joint asset visibility capabilities. GCSS uses a new technology approach that will
            enable warfighters to access near real time information. Global JTAV was to
            rely on data links to legacy systems that used batch processing8 to update records.



6
    Unless otherwise specified, the term JTAV will refer to the in-theater capabilities.
7
    Authorized CINC users include deployment re-supply organizations, operational units, Defense
    agencies, and their support contractors.
8
    Batch processing involves updating automated records on a cyclical basis as opposed to updating records
    as changes are made (real time).


                                                        4
JTAV Capabilities
    JTAV provided incomplete asset visibility to CINCs. Although the JTAV full
    operational capability called for visibility of in-storage assets, in-process assets,
    in-transit assets, and personnel, JTAV provides only partial visibility for
    in-storage and in-transit assets and for personnel. It provides no visibility for
    in-process assets and does not track requisitions.

    Required Capability. Requirements to achieve JTAV full operational
    capability were not completely implemented. JTAV was to provide joint
    visibility of Service, agency, commercial, and coalition in-storage, in-process,
    in-transit, and personnel assets. JTAV was to include visibility of retail and
    wholesale stocks; requisitioned, pre-positioned, and war reserve stocks;
    equipment at the units and equipment within the maintenance process; assets in
    procurement; in-transit cargo, supplies, bulk fuel, munitions, and equipment;
    and Military units, personnel, and skills. To meet those requirements, the
    JTAV Program was expected to have data links with a total of 130 critical DoD
    Component and coalition automated information systems and databases. Of
    those 130 links, 77 had been developed, but 53 had not been developed as of
    June 20, 2001.

    Current Capability. JTAV provides no visibility of in-process, in-maintenance
    (repair), and in-procurement items and provides limited visibility of in-storage
    assets, in-transit assets, and personnel, as shown in the following table.


                                      JTAV Visibility Status1

                                      Army       Navy      Air Force    Marine Corps        DLA
     In-process:
           Maintenance                 No        No         No              No             No
           Procurement                 No        No         No              No             No
     In-storage:
           Pre-positioned stocks       Yes       Yes        Yes             Yes            Yes
           Unit equipment              Yes       Partial    Yes             Yes            N/A2
     In-transit3                       Partial   Partial    Partial         Partial        Partial
                  4
     Personnel                         Partial   Partial    Partial         Partial        N/A
     1
         The JTAV Program Office provided this data. We did not validate the data for
         accuracy.
     2
         Not applicable.
     3
         The Global Transportation Network system provides JTAV the data for in-transit
         visibility. In-transit assets include both wholesale and retail assets that the Government
         owns and are between locations. Items in transit from a contractor to the Government
         are not tracked in the Global Transportation Network system.
     4
         The Global Transportation Network system provides JTAV the capability to track
         in-transit personnel. JTAV does not provide visibility of in-place personnel.



                                                   5
    In-storage assets include Military unit equipment and pre-positioned stocks.
    Although personnel visibility is depicted as partially developed, visibility is
    based on the capability to track in-transit personnel through the Global
    Transportation Network system of the U.S. Transportation Command.
    Personnel visibility was originally planned as a capability to be developed as
    part of JTAV; however, the Joint Personnel Asset Visibility system is being
    separately developed by the DoD Human Resources Activity as part of the
    Defense Integrated Military Human Resources System to provide personnel
    visibility data to GCSS. Data links to 77 automated information systems and
    databases had been developed to provide asset visibility data to JTAV. Because
    both Service and Defense agency systems, and JTAV itself, are
    batch-processing systems, the data provided through those 77 data links are
    neither accurate nor timely.

    Current Use. JTAV is a valuable tool for use by CINC users even though it
    does not provide full asset visibility. Because of the sensitivity of Operation
    Enduring Freedom, we were unable to evaluate the use of JTAV at the unified
    commands. However, representatives at the U.S. Central Command indicated
    that JTAV was being used to support logistics planning and execution for
    Operation Enduring Freedom. U.S. Joint Forces Command representatives
    indicated that JTAV was the best tool available to provide a joint visibility
    picture of assets. Further, they stated that JTAV was a valuable tool for what it
    provides, even though it did not provide them with full asset visibility.

    In order to determine user opinions about the usefulness of JTAV, we reviewed
    all user lessons learned problem reports from joint exercises involving JTAV.
    Joint exercise participants input their lessons learned problem reports into the
    automated database, the Joint Universal Lessons Learned System (JULLS). The
    purpose of JULLS is to improve the warfighting capabilities for the CINCs by
    taking advantage of the lessons learned from real world operations and exercises.
    As a result of our review of lessons learned, we concluded that users were using
    JTAV although it did not provide full asset visibility. Our review of lessons
    learned reports revealed that JTAV lacked in-storage asset and personnel
    visibility for the warfighter; lacked accurate and timely source data; and lacked
    data links to critical data. For example, JULLS number 12347-30447, “Software
    Package for the Asset Tracking Logistics and Supply System (ATLASS),”
    June 25, 1998, observed that there was no module in the Asset Tracking
    Logistics and Supply System to permit interface with the Army supply system.


Program Status
    Global JTAV had been proposed as the future direction for the JTAV Program.
    However, because of funding limitations in DoD and identical information
    requirements for both global JTAV and GCSS, the Logistics Reform Senior
    Steering Group, chaired by DUSD(L&MR), stopped all new JTAV software
    development at the end of FY 2000. Additionally, the Steering Group placed
    the JTAV Program in the system sustainment phase of acquisition development.
    The JTAV Program Office was directed to maintain the JTAV at the FY 2000



                                        6
            baseline capability. As a result, required JTAV capabilities were not fully
            developed to provide CINCs with the required data on the location, movement,
            status, and identity of Military units, personnel, equipment, and supplies.

            Sustainment Decision. To support the decision of the Logistics Reform Senior
            Steering Group, funding was requested through FY 2005 to sustain the JTAV at
            the FY 2000 baseline capability. The group did not recommend funding the
            development of the remaining 53 data links or the global JTAV capabilities. One
            of the factors for that recommendation was that GCSS uses a new technology
            approach that will enable warfighters to access near real time information
            whereas global JTAV was to rely on data links to legacy systems that used batch
            processing to update records. In order to avoid duplicating functions that would
            be included in GCSS, the development of the global JTAV and the development
            of data links for the remaining 53 targeted Component-level automated systems
            and databases were discontinued.

                   Program Budget Decision. In December 1999, the Under Secretary of
            Defense (Comptroller) approved Program Budget Decision 070C, programming
            $43.8 million in system sustainment funding for JTAV. The budget decision
            provided funding for the JTAV Program for FY 2001 through FY 2005.

                   Execution Guidance. On March 17, 2000, the Principal Assistant
            DUSD(L&MR) issued guidance relating to the funding programmed in Program
            Budget Decision 070C. Key elements of the execution guidance required the
            JTAV Program Office to:

                    •    migrate JTAV architecture to the GCSS data environment during
                         FY 2000, coordinating all data distribution engineering activities with
                         the Defense Information Systems Agency;

                    •    pursue additional data elements for the FY 2000 baseline only with
                         the approval of the Logistics Information Board9 and only after
                         sources for all current data elements are made available;

                    •    limit software and hardware maintenance in the field to that
                         necessary to stabilize the JTAV baseline capability;

                    •    discontinue all new software development at the end of FY 2000; and

                    •    limit JTAV software expenditures in FY 2001 and beyond to changes
                         necessary to ensure the correct execution of requirements
                         documented in the FY 2000 baseline.




9
    The Logistics Information Board provides a forum for senior managers to review and resolve issues
    regarding information requirements associated with logistics policies, procedures, and business practices.


                                                       7
    GCSS Program Capabilities. Although JTAV did not provide the full
    spectrum of visibility desired by the CINCs and joint force commanders, access
    to the data currently provided by JTAV as well as access to other undeveloped
    data sources as required by CINCs are to be integrated into the GCSS family of
    systems. As GCSS is being developed for future implementation, joint asset
    visibility functionality will be included in the logistics module of GCSS. That
    module is envisioned to be an enhanced version of the FY 2000 baseline
    capabilities provided by the JTAV Program. The capability for joint asset
    visibility is a cornerstone of the GCSS family of systems concept. GCSS is to
    provide the joint warfighter with a single, end-to-end capability to manage
    Military units, personnel, and equipment from mobilization through
    deployment, operational sustainment, redeployment, and demobilization. GCSS
    will present the warfighter an integrated picture of logistics and eliminate the
    need to individually access multiple legacy systems.

    Although GCSS is scheduled to be fielded in FY 2004, it might not be fully
    operational at that time. Funds for JTAV were programmed through FY 2005
    in order to allow for a period of parallel operation of the two systems. The
    period of parallel operation is designed to ensure that GCSS capabilities are
    functional and can provide at least the same capabilities provided by JTAV.
    The operational priorities in support of Operation Enduring Freedom clearly
    demonstrate the need for a joint logistics management tool and the
    imperativeness that JTAV capabilities be sustained until GCSS is fielded and can
    provide those capabilities.


Conclusion
    The JTAV Program was not fully developed and funded at the level necessary to
    provide CINCs with the total asset visibility required. As a result, CINCs did
    not have access through JTAV to all required data on the location, movement,
    status, and identity of Military units, personnel, equipment, and supplies.
    Nevertheless, JTAV users stated that the program was a useful tool to support
    logistics planning, which was evidenced by the use of JTAV by the CINCs as a
    planning tool in support of Operation Enduring Freedom.


Recommendation and Management Comments
    We recommend that the Deputy Under Secretary of Defense (Logistics and
    Materiel Readiness) ensure that the Joint Total Asset Visibility Program is
    funded until sufficient operational capabilities of the Global Combat
    Support System have been fielded and can provide capabilities that are at
    least equivalent to the existing Joint Total Asset Visibility Program.

    Management Comments. The Deputy Under Secretary of Defense (Logistics
    and Materiel Readiness) concurred and stated that his office would continue to
    monitor the Defense Logistics Agency’s budget to ensure continued funding to
    sustain the current program until equivalent capabilities are fielded.


                                        8
Appendix A. Audit Process

Scope and Methodology
    Work Performed. We reviewed DoD guidance; lessons learned problem
    reports; prior audit reports, including the status of report recommendations;
    program funding documentation; and system quarterly reports related to JTAV.
    The documents we reviewed were dated from January 1993 through
    November 2001. To accomplish the JTAV audit objective, we:

           •   interviewed officials and obtained documentation from the JTAV
               Program Office; the office of DUSD(L&MR); the Directorate for
               Logistics (J-4), Joint Staff; and JTAV users and operators at the
               U.S. Joint Forces Command and the U.S. Central Command;

           •   reviewed JULLS problem reports dated from March through
               August 1998; and

           •   reviewed the overall implementation of JTAV, JTAV sustainment
               funding documentation dated December 1999, and JTAV usage data
               for April through June 2001.

    Limitations to Scope. The audit scope was limited because we did not test the
    operational use of JTAV due to restrictions on overseas travel and the reduced
    availability of JTAV users at the unified commands following the terrorist
    attacks of September 11, 2001. Additionally, we did not validate the accuracy
    of the information about targeted JTAV data links presented in the table titled
    “JTAV Visibility Status” and in Appendix E.

    High-Risk Area. The General Accounting Office has identified several
    high-risk areas in DoD. This report provides coverage of the DoD Systems
    Modernization high-risk area.

    Use of Computer-Processed Data. We did not rely on computer-processed
    data to develop conclusions in this report.

    Audit Type, Dates, and Standards. We performed this program audit from
    September through November 2001 in accordance with generally accepted
    government auditing standards.

    Contacts During the Audit. We contacted individuals and organizations within
    DoD. Further details are available upon request.




                                        9
Management Control Program Review
           We did not test JTAV management controls in this audit. This report is the second
           report in a series. In the first report, Inspector General, DoD, Report
           No. D-2002-016, “Government Performance and Results Act Performance
           Measure for DoD Total Asset Visibility,” November 21, 2001, we identified and
           discussed a management control weakness as defined by DoD Instruction 5010.40,
           “Management Control (MC) Program Procedures,” August 28, 1996. The report
           states that the DUSD(L&MR) oversight of total asset visibility reporting by the
           Components was inadequate to ensure that total asset visibility data reported by the
           DoD Components were current, accurate, and complete. DUSD(L&MR) did not
           issue written guidance on the types of assets to be reported by the Components.
           Additionally, DUSD(L&MR) did not adequately verify the asset data that the
           Components reported.

           Appendix C of that report also discussed the reporting of DoD total asset
           visibility as a systemic control weakness in the annual statements of assurance
           published by DoD, the Office of the Secretary of Defense, and the Components.
           The TAV systemic management control weakness reported in the FY 1999 DoD
           Annual Statement of Assurance∗ defines the total asset visibility problem as the
           lack of the capability within DoD to share logistics information concerning the
           location, condition, quantity, and availability of assets within and between the
           Components and the unified commands. The Statement of Assurance further
           states, “The components have developed their own systems which give them an
           asset visibility capability within their own respective organizations [which] must
           now be integrated and voids satisfied . . ..” However, all the actions and
           milestones established to correct the systemic control weakness address asset
           visibility in terms of the JTAV Program. The JTAV Program addresses asset
           visibility for the unified commands rather than the Components. None of the
           milestones address the stated problem of integrating the Component logistics
           systems. The FY 2000 Statement of Assurance issued by the Office of the
           Secretary of Defense also identifies total asset visibility as a systemic control
           weakness. In addition, the Army, the Navy, and the Air Force report a
           management control weakness related to total asset visibility or total asset
           visibility-related issues in their individual Statements of Assurance for FY 2000.




*
    The FY 2000 DoD Annual Statement of Assurance was issued in October 2001, subsequent to the
    completion of that audit. In keeping with prior DoD Annual Statements, the FY 2000 Annual Statement
    of Assurance identified total asset visibility as a systemic control weakness.


                                                   10
Appendix B. Prior Coverage
    During the last 5 years, the General Accounting Office issued one report and the
    Inspector General, DoD, issued six reports addressing total asset visibility in
    DoD. Unrestricted General Accounting Office reports can be accessed over the
    Internet at http://www.gao.gov. Unrestricted Inspector General, DoD, reports
    can be accessed at http://www.dodig.osd.mil/audit/reports.


General Accounting Office
    General Accounting Office Report No. GAO/NSIAD-99-40 (OSD Case No. 1739),
    “Defense Inventory: DoD Could Improve Total Asset Visibility Initiative With
    Results Act Framework,” April 12, 1999


Inspector General, DoD
    Inspector General, DoD, Report No. D-2002-016, “Government Performance
    and Results Act Performance Measure for DoD Total Asset Visibility,”
    November 21, 2001

    Inspector General, DoD, Report No. D-2000-122, “Information Assurance in
    the Advanced Logistics Program,” May 12, 2000

    Inspector General, DoD, Report No. D-2000-055, “Acquisition Management of
    the Joint Total Asset Visibility System,” December 14, 1999

    Inspector General, DoD, Report No. 00-009, “Information Assurance for the
    Joint Total Asset Visibility System at the U.S. Pacific Command (U),”
    October 14, 1999

    Inspector General, DoD, Report No. 00-005, “Information Assurance for the
    Joint Total Asset Visibility System (U),” October 8, 1999

    Inspector General, DoD, Report No. 99-159, “Interservice Availability of
    Multiservice Used Items,” May 14, 1999




                                       11
Appendix C. Definitions and Terms
   This appendix defines some of the terms used in this report.

   Advanced Concept Technology Demonstration. An initiative to accelerate the
   transition of maturing technologies that have a potential to rapidly provide
   improved military capabilities or technological solutions to specific emerging
   operational challenges. An advanced concept technology demonstration is a
   short-term program that seeks to provide a militarily significant residual
   capability at the end of the demonstration.

   Asset. Primary or secondary materiel, to include materiel on hand and due in.

   Automated Information System. An assembly of computer hardware,
   software, data, and telecommunications, or any combination of those elements,
   configured to accomplish specific information-handling operations, such as
   collecting, displaying, processing, and transmitting information.

   Cargo. Any materiel or item of supply that is in transit.

   Component. A Military Department or Defense agency.

   Consumable Item. An item of supply that is normally expended or used up
   beyond recovery in the use for which it is designed or intended.

   Critical Item. An essential item that is in short supply or expected to be in
   short supply for an extended period.

   Demobilization. The process of transitioning a conflict or wartime military
   establishment to a peacetime configuration while maintaining national security.

   Deployment. The relocation of forces to areas of operation.

   End Item. A final combination of end products, component parts, and materiel
   that is ready for its intended use, such as a ship, tank, or aircraft.

   Equipment. In logistics, all nonconsumable items needed to outfit or equip an
   individual or organization.

   Executive Agent. A term used in DoD and Service regulations to indicate a
   delegation of authority by a superior to a subordinate to act on behalf of the superior.

   Global Combat Support System. Supplies commanders at the CINC and joint
   task force level with read-only access to comprehensive combat support
   information from various databases and portrays combat support status.

   Global Transportation Network. An automated network of the U.S.
   Transportation Command that provides integrated transportation data and
   systems necessary to accomplish global transportation planning, command and
   control, and in-transit visibility across the range of military operations.

                                       12
Initial Operational Capability. The first attainment of the capability to
effectively employ a weapon, item of equipment, or system of approved specific
characteristics, and which is manned or operated by an adequately trained,
equipped, and supported Military unit or force.

In-Process Assets. Assets on order from DoD vendors and not yet shipped,
assets in repair at depot-level organic or commercial repair facilities, and assets
in repair at intermediate repair facilities.

In-Storage Assets. Assets in storage at retail consumer sites, at retail
intermediate storage sites, at disposal sites, or in wholesale inventories, to
include ashore and afloat pre-positioned assets.

In-Transit Assets. Assets that are between storage locations, either wholesale
or retail; assets shipped from vendors after acceptance by the Government but
not yet received by the inventory manager; assets temporarily in use or on loan
with contractors or schools; or assets that cannot be otherwise categorized.

In-Transit Visibility. The ability to track the identity, status, and location of
DoD cargo, passengers, medical patients, and personal property from origin to
the destination designated by the CINCs, the Services, or Defense agencies
during peace, contingencies, and war.

Inventory. Materiel that is titled to the Government, held for sale or issue,
held for repair, or held pending transfer to disposal.

Joint Task Force. A joint force that is constituted and so designated by the
Secretary of Defense, a combatant commander, a sub-unified commander, or an
existing joint task force commander.

Legacy System. An existing automated information system that performs the
same functions that a future replacement system will perform.

Logistics Reform Senior Steering Group. A committee composed of DoD
senior executives and managers that advises the Office of the Secretary of
Defense on the development and management of functional and technical
strategies to modernize and maintain the logistics infrastructure that supports the
operational missions of the theater CINCs, the Services, and the Defense
agencies. The Logistics Reform Senior Steering Group provides oversight of
requirements that support centralized planning of logistics requirements.
Materiel. All items (including end items and related spares, repair parts, and
support equipment, but excluding real property, installations, and utilities)
necessary to equip, operate, maintain, and support military activities.

Materiel Management. Continuing actions relating to planning, organizing,
directing, coordinating, controlling, and evaluating the application of resources to
ensure the effective and economical support of military forces. Materiel
management includes provisioning and cataloging materiel as well as requirements
determination, acquisition, distribution, maintenance, and disposal of materiel.



                                     13
Military Departments. The Departments of the Army, the Navy, and the Air
Force.

Principal Items. End items or a replacement assembly of such importance to
operational readiness that management techniques require centralized individual
item management through the supply system to include items stocked at the
depot level, base level, and unit level.

Program Budget Decision. Secretary of Defense decision documents that
affirm or change dollar amounts or personnel allowances in the Services’ budget
estimate submissions.

Redeployment. The process of evacuating, moving, or returning units,
non-unit cargo, and non-unit personnel from a theater of operations to another
theater of operations.

Requisition. An order for materiel initiated by an established, authorized
organization that is transmitted to a supply source organization assigned
management responsibility for a category of materiel.

Secondary Items. Consumable and reparable items other than principal items.

Sustainment (Operational). The provision of personnel, logistics, and other
support required for maintaining and prolonging operations or combating until
successful accomplishment of the mission.

Sustainment (System). The provision of personnel, logistics, and other support
required for maintaining the readiness and operational capability of deployed
information systems. The scope of support varies among information systems
but includes supply, maintenance, transportation, engineering, data
management, configuration management, personnel, training, protection of
critical program information, and environmental management functions.

System Development Life Cycle. The process of developing information
systems through investigation, analysis, design, implementation, and
maintenance.

Theater. A geographical area outside the continental United States for which a
commander of a combatant command has been assigned responsibility.

Unified Command. A command with a broad continuing mission under a
single commander and composed of significant assigned Components of two or
more Military Departments.




                                   14
Appendix D. Asset Visibility Lessons Learned
      The following examples of lessons learned that relate to the use of JTAV during
      joint exercises were abstracted from JULLS.

 JULLS Title,
 Number, and
 Date               Observation            Lessons Learned                Recommendation

 Logistics        JTAV was not         The JTAV data must be of        That JTAV data be
 Automation and   used to assist       the best quality possible.      improved and the
 JTAV             movement or          If volume increases, as         Services and agencies
                  monitoring           expected during a               that provide data be
                  supplies/            prolonged buildup or            better funded to
 Log No.          requisitions.        during sustainment, the         improve the process, to
 88290-22884      Logistics            sheer load will overwhelm       include training at the
                  automation is        personnel and movement          legacy level. That the
 Dated:           needed both in       requirements. Although          GCSS be moved up in
 April 15, 1998   the continental      that was not apparent           development priority
                  United States and    during this smaller             and some of the major
                  in the area of       operation, it is obvious        subordinate applications
                  responsibility.      that with a small increase      be made available to the
                                       in operations the problems      unified commands and
                                       would snowball. Many            Components as soon as
                                       actions were handled via        possible.
                                       e-mail or telephone. That
                                       provided a quick
                                       response, but if volume
                                       had been massive the
                                       process would have failed.

 In-Transit       In-transit           The work-around solution        a. Push for increased
 Visibility       visibility systems   was to fax the available        funding for automated
                  did not provide      manifest data from aerial       identification technology
                  deployed joint       port of embarkation to          to support joint task
 Log No.          task forces with     aerial port of debarkation.     force deployments and
 34719-06218      sufficient           It was an incomplete            champion initiatives to
                  identification in    solution and did not use        improve interfaces
 Dated:           order to support     the joint in-transit            between Service
 Aug 19, 1998     preparations for     visibility system               Component and joint
                  reception of         capabilities. Efficient data    in-transit visibility
                  specific units of    feeds and functional            systems. (In-transit
                  incoming airlift     system interfaces for joint     visibility training must
                  cargo.               in-transit assets are basic     emphasize automated
                                       to effective joint in-transit   identification technology
                                       visibility.                     and the importance of
                                                                       timely data input at air
                                                                       and seaports to the
                                                                       functioning and value of
                                                                       joint Service systems).




                                            15
JULLS Title,
Number, and
Date               Observation            Lessons Learned              Recommendation

Log No.                                                             b. Develop the expertise
34719-06218                                                         of staff elements and
(continued)                                                         joint task force
                                                                    personnel to operate and
                                                                    to appreciate the
                                                                    practical utility of
                                                                    employing joint tracking
                                                                    systems.

Lack of Joint    Operation Desert     Personnel accountability      That a unified command
Personnel        Thunder revealed     must be established early     take the lead in getting
Accounting       problems with        on during the deployment      the Joint Personnel
Automation       accounting for,      with supporting real time     Asset Visibility system
Systems          tracking, and        automation systems.           for testing/initial
                 obtaining                                          fielding within the
                 information on                                     command.
Log No.          personnel
41156-19877      deployed in a
                 joint task force.
Dated:           Every Service
April 10, 1998   has its own
                 system to
                 account for
                 personnel.

Nuclear/         The Joint Staff      During a time of crisis,      Provide the Directorate
Biological/      does not have        there are times when          for Logistics (J-4), Joint
Chemical         visibility of real   information must be           Staff, access to the
Equipment        time information     obtained and verified from    Army Total Asset
Visibility       into the stockage    multiple sources in order     Visibility System in
                 levels of critical   to portray a total picture.   order to be able to
                 assets.              However, the Joint Staff      query detailed
Log No.                               should have access to         information from
32043-89656                           information through an        multiple databases on
                                      automated database such       the net asset position of
Dated:                                as the Army Total Asset       critical assets.
March 18, 1998                        Visibility System to obtain
                                      net asset position of
                                      critical assets.




                                           16
JULLS Title,
Number, and
Date                Observation          Lessons Learned             Recommendation

Software          There was no       An Army unit                 That a Unit Line
Package for the   module in the      identification code had to   Logistics System
Asset Tracking    Asset Tracking     be created for the Marine    template be added to the
Logistics and     Logistics and      Corps to order supplies      new phase of the Asset
Supply System     Supply System to   from the Army.               Tracking Logistics and
(ATLASS)          permit interface                                Supply System that is
                  with the Army                                   being upgraded to
                  supply system.                                  interface with the Army
Log No.                                                           supply system. That
12347-30447                                                       would eliminate the
                                                                  manual process of
Dated:                                                            filling out handwritten
June 25, 1998                                                     forms. Identify common
                                                                  item support in the
                                                                  Asset Tracking
                                                                  Logistics and Supply
                                                                  System. The template
                                                                  would allow electronic
                                                                  interface with the Army
                                                                  supply system.




                                          17
Appendix E. Targeted Joint Total Asset
            Visibility Data Links
       This appendix was developed from information provided by the JTAV Program
       Office. We did not validate the information for accuracy. Out of a total of 130
       data links targeted for development, only 77 were developed.

                                                                            Not
                                                         Developed       Developed
Air Force Data Sources

Air Force Equipment Management System                          X
Combat Ammunition System                                       X
Core Air Force Maintenance System                                             X
Depot Standard System Air Force                                X
Pipeline Tracking Analysis and Metric System                                  X
Reliability and Maintainability Information System                            X
Standard Base Supply System                                    X
Stock Control System                                                          X

Army Data Sources

Army Total Asset Visibility (Logistics
   Integrated Database)                                        X
Army War Reserves Distribution System – Army
   Preposition Stocks                                          X
Commodity Command Standard System                              X
Logistics Intelligence File                                                   X
Material Returns Database                                                     X
Reserve Component Automation System                                           X
Standard Army Ammunition System – Modernization                X
Standard Army Maintenance System                                              X
Standard Army Retail Supply System                             X
Standard Property Book – Redesign                              X
Theater Army Medical Management
   Information System                                          X
Work Order Logistics File                                                     X
Worldwide Ammunition Reporting System                          X

Automated Identification Technology Data Sources
Automated Manifest Data Source                                 X
Defense Tracking, Reporting and Control System                 X
Radio Frequency Continental United States                      X
Radio Frequency Europe                                         X
Radio Frequency Korea                                          X




                                          18
                                                                      Not
                                                       Developed   Developed
Coalition Data Sources

Asian                                                                  X
Canada                                                                 X
Foreign Military Sales                                                 X
France                                                                 X
Israel                                                                 X
Japan                                                                  X
Kuwait                                                                 X
Mexico                                                                 X
North Atlantic Treaty Organization                                     X
Organization of African States                                         X
Qatar                                                                  X
Saudi Arabia                                                           X
South East Asia Treaty Organization                                    X
United Arab Emirates                                                   X
United Kingdom                                                         X

Commercial Data Sources

Direct Vendor Delivery                                                 X
DoD Contract Asset Visibility                                          X

Defense Advanced Research Project Agency Data Sources

Advanced Logistics Project                                 X
Joint Logistics Advanced Concept Technical Demonstration   X

Defense Information Systems Agency Data Source

Common Operating Picture Combat Support Enabled            X

Defense Logistics Agency Data Sources

Defense Automated Addressing System
    Logistics Operational Tracking System                  X
Defense Automatic Addressing System Center                 X
Defense Fuels Automated Management System                  X
Defense Integrated Subsistence Management System           X
Defense Reutilization Materials System                     X
Depot Standard System Air Force                            X
Fast Food                                                  X
Federal Logistics Information System                       X
Folder                                                                 X
Fuel Automated System                                                  X
Integrated Consumable Item Support                         X
Standard Automated Materiel Management System              X
Standard Procurement System/Shared Data Warehouse                      X


                                        19
                                                                     Not
                                                      Developed   Developed
Joint Medical Automated Repository Data Sources

Defense Blood Standard System                             X
Defense Medical Logistics Standard System                 X
Fleet Inventory Management and Reporting System           X
Medical Logistics                                         X
Medical Supply Integrated List System                     X
NAC (Army internal medical inventory system)              X
NAY (Army pre-positioned medical stocks)                  X
Theater Army Medical Management Information
   System – Medical Assemblage Management                 X
Theater Army Medical Management Information
   System – Medical Supply                                X
Universal Data Repository                                 X
Vendor Managed Items                                      X

Joint Personnel Asset Visibility Data Sources

Air Force Personnel Tempo                                             X
Army Personnel Tempo                                                  X
Cargo Routing Information Management/Global
    Transportation Network                                            X
Common Access Card/Global Air Transportation
    Execution System                                                  X
Defense Clearance and Investigation Index/Joint
    Personnel Accreditation System                        X
Defense Eligibility and Enrollment Reporting System       X
Joint Operation Planning and Execution System/
    Force Requirements Generator                                      X
Marine Corps Personnel Tempo                              X
Navy Personnel Tempo                                                  X
Unit Identification Code                                  X

Marine Corps Data Sources

Advanced Traceability and Control System                              X
Asset Tracking Logistics and Supply System (version II)               X
Maintenance Resource Planning (version II)                            X
Marine Corps Automated Ammunition and
   Requisitioning System (version II)                     X
Marine Corps Integrated Maintenance Management System                 X
Maritime Prepositioning Ships Blount Island Command                   X
Stock Control System                                      X
Supported Activity Supply System                          X




                                         20
                                                                        Not
                                                         Developed   Developed
Military Sealift Command Data Sources

Afloat Residual Asset Management System                                  X
Configuration Management Information Systems                             X
Conventional Ammunition Integration
   Management System                                         X
Navy Energy Usage Reporting System                                       X
Shipboard Non-Tactical Automation Program/
   Shipboard Uniform Automatic Data Processing System/
   Fleet Inventory Management and Reporting System                       X
Supply Management                                                        X

Naval Data Sources

Advanced Tracibility and Control System                                  X
Aircraft Maintenance Material Reporting System                           X
Cargo Routing Information Management                                     X
Construction Automotive and Special Equipment
    Management Information System                            X
Conventional Ammunition Integrated Management System         X
Fleet Inventory Management and Reporting System              X
Individual Material Reporting System                                     X
Naval Aviation Logistics Data Analysis II                                X
Uniformed Automated Data Processing System Revision II       X

U.S. Coast Guard Data Sources

Aviation Logistics Management Information System                         X
Configuration Management Plus                                            X
Conventional Ammunition Integrated
   Management System                                         X
Supply Computer Replacement Center                           X

U.S. Transportation Command/
   Global Transportation Network Data Sources

Air Mobility Command Development Analysis System             X
Automated Manifest System                                    X
Broker                                                       X
Cargo Movement Operations System                             X
Consolidated Air Mobility Planning System                    X
Continental US Freight Management System                     X
Defense Automatic Addressing System                          X
Defense Transportation Tracking System                       X
Global Air Transportation Execution System                   X
Global Command and Control System –
   Command and Control                                       X



                                        21
                                                                   Not
                                                    Developed   Developed
U.S. Transportation Command/
   Global Transportation Network Data Sources (cont’d)

Global Decision Support Tools                            X
Groups Operational Passenger System                      X
Integrated Booking System                                X
Integrated Command, Control and
    Communication Systems                                X
Joint Air Logistics Information System                   X
Logistics Automated Information System/Passengers        X
Munitions Transportation Management System                          X
Radio Frequency Continental United States                X
Radio Frequency Europe                                   X
Radio Frequency Korea                                    X
Transportation Coordinator Automated Command and
    Control System                                       X
Transportation Coordinator Automated Information
    Manifest System II                                   X
Worldwide Port System                                    X




                                      22
Appendix F. Report Distribution

Office of the Secretary of the Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Logistics and Materiel Readiness)
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Joint Staff
Director for Logistics (J-4)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Unified Commands
Commander in Chief, U.S. European Command
Commander in Chief, U.S. Pacific Command
Commander in Chief, U.S. Joint Forces Command
Commander in Chief, U.S. Southern Command
Commander in Chief, U.S. Central Command
Commander in Chief, U.S. Special Operations Command
Commander in Chief, U.S. Transportation Command




                                          23
Other Defense Organizations
Director, Defense Logistics Agency

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         24
Deputy Under Secretary of Defense (Logistics and
Materiel Readiness) Comments




                       25
26
Audit Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant Inspector
General for Auditing, DoD, prepared this report. Personnel of the Office of the
Inspector General, DoD, who contributed to the report are listed below.

Shelton R. Young
Kimberley A. Caprio
Tilghman A. Schraden
Kathryn L. Palmer
Major Daniel R. Sny, U.S. Air Force
Walter S. Bohinski
William H. Zeh
Glen B. Wolff
Stuart W. Josephs
Susan R. Ryan
Daniel L. Messner
